WAIVER
SUPREME COURT OF THE UNITED STATES

1

No. 121-5345

-j
Medical Transportation Management, Incol

Leonard Thurman
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSEIo the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Medical Transportation Management, Incorporated (Respondent)

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Dar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
First Street, NE, Wa hington, D.C. 20543).
Attn: Clerk'

0

Signature:
Date:

I

(Type or p nt) Name Jason B. Purvis
i
i

0 Mr.
Firm

Purvis & Co. PLLC

Address

[229 Debuys Road

City & State

Gulfport, MS

Phone

228-206-7174

0 Ms.

0 Mrs.

0 Miss

Zip 39507
Email purvis@purviscolaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Mr. Leonard Thurman
120 Rucker Lane
Bentonia, MS 39040

